ASSET MANAGEMENT:
Integrating Sound Business Practices into its Fleet Planning
Process Could Save Amtrak Hundreds of Millions of Dollars on
Equipment Procurements




                          Report No. OIG-E-2013-014 | May 28, 2013
      NATIONAL RAILROAD
      PASSENGER CORPORATION
                                                         The Inspector General


Memorandum
To:              Joseph H. Boardman, President and Chief Executive Officer

From:            Ted Alves, Inspector General

Date:            May 28, 2013

Subject:         Asset Management: Integrating Sound Business Practices into its Fleet
                 Planning Process Could Save Amtrak Hundreds of Millions of Dollars on
                 Equipment Procurements (Report No. OIG-E-2013-014)

Amtrak issued a plan in March 2012 to spend a total of $13 billion over the next 15
years to replace and augment the majority of its current fleet of locomotives and cars
(collectively referred to as equipment in this report).1 The Fiscal Year (FY) 2012 Fleet
Strategy is the third version of Amtrak’s fleet plan submitted to Congress, which was
first required in law by the Omnibus Appropriations Act of 2009.2 The appropriations
act required a comprehensive plan detailing time frames for the maintenance,
refurbishment, replacement, and expansion of Amtrak’s fleet and its preferred method
of financing these activities.

Additionally, the Transportation, Housing and Urban Development and Related
Agencies Appropriations Act of 20123 required Amtrak to incorporate the information
from the fleet plan into its annual budget and Five-Year Financial Plan. Further, Amtrak
is required by the Passenger Rail Investment and Improvement Act of 2008 (PRIIA)4 to
develop these financial plans in accordance with sound budgetary practices intended
to increase its revenue and reduce costs. PRIIA also required estimates of the amount

1 Amtrak’s Fiscal Year (FY) 2012 Fleet Strategy Version 3.1: Building a Sustainable Fleet for the Future of
America’s Intercity and High Speed Railroad included planned acquisitions of 392 locomotives; 1,373
passenger cars; 80 auto-carriers; and 20 high-speed trainsets.
2 Public Law 111-8.

3 Public Law 112-55 Division C.

4 Public Law 110-432 Division B.
                                                                                                       2
                             Amtrak Office of Inspector General
             Asset Management: Integrating Sound Business Practices into its
                 Fleet Planning Process Could Save Amtrak Hundreds of
                     Millions of Dollars on Equipment Procurements
                         Report No. OIG-E-2013-014, May 28, 2013

of funding needed to maintain its passenger services and accommodate projected
ridership levels.

At Congress’s request,5 we previously evaluated and reported on Amtrak’s FY 2010
Fleet Strategy.6 We found that the Fleet Strategy was a commendable, high-level plan
that would benefit from deeper analysis and a more integrated planning process. We
also identified a number of specific areas where detailed analysis and improved
planning could reduce projected funding requirements by hundreds of millions, and
potentially billions, of dollars. Amtrak management agreed with the findings and
recommendations. Since our prior report, Amtrak hired a full-time fleet planning
officer in its Finance Department in November 2011 to coordinate and improve the
fleet planning process. Amtrak also established a Fleet Strategy Executive Steering
Committee in January 2012 to provide oversight and direction to fleet planning.

We initiated this evaluation to determine whether the FY 2012 Fleet Strategy was based
on detailed analyses and integrated planning in line with our previous
recommendations (listed in Appendix II). Based on our initial discussions with the
corporation, we expanded the scope of this evaluation to review Amtrak’s entire fleet
planning process.

Our previous analysis of other passenger rail operators and our current review of
guidance from the Department of Transportation and the Government Accountability
Office (GAO) indicate three essential elements of sound fleet planning: adequately
analyzing how much equipment is needed, identifying the most cost-effective
approach to meeting these equipment needs, and properly integrating equipment
acquisition planning with overall financial planning to ensure that funds are properly
budgeted and used most effectively. Therefore, the objectives of this report are to
describe the practices and plan that were in place during the course of our review and
evaluate the extent to which Amtrak’s fleet planning process had (1) adequately
determined the corporation’s equipment needs, (2) determined a cost-effective

5 We were asked to do this work by the then-ranking member of the U.S. Senate Committee on
Appropriations, Subcommittee on Transportation, Housing and Urban Development, and Related
Agencies.
6 See Evaluation of Amtrak’s FY 2010 Fleet Strategy: A Commendable High-Level Plan That Needs Deeper

Analysis and Planning Integration (OIG-E-11-2, March 31, 2011).
                                                                                       3
                           Amtrak Office of Inspector General
           Asset Management: Integrating Sound Business Practices into its
               Fleet Planning Process Could Save Amtrak Hundreds of
                   Millions of Dollars on Equipment Procurements
                       Report No. OIG-E-2013-014, May 28, 2013

approach to meeting equipment needs, and (3) integrated its equipment acquisition
plans with its financial plans. For a detailed discussion of our evaluation methodology,
see Appendix I.



SUMMARY OF RESULTS

Amtrak risks spending hundreds of millions of dollars more than necessary and
needing additional operating subsidies if it does not adopt sound business practices as
it improves its fleet planning process.

Determining Equipment Needs. Although Amtrak has taken encouraging initial steps
to analyze ridership demand for its next generation of high-speed rail trainsets, it has
not developed a disciplined process for determining its equipment needs. As a result, it
still has not adequately analyzed its other equipment requirements. The corporation
projected its fleet acquisition requirements without analyzing route-specific ridership
demand and determining the optimal level of service for each route based on its
business strategies. Further, it has still not considered its plans to improve equipment
availability in determining the amount of equipment needed.

Pursuing acquisitions before adequately analyzing needs could result in spending
hundreds of millions of dollars more than necessary on future equipment. For
example, Amtrak is spending $563 million for 70 new electric locomotives without
having adequately analyzed its locomotive needs. Based on Amtrak’s own numbers, it
will need only 56 new locomotives to meet its peak demand on a normal day. Amtrak
has yet to conduct a detailed analysis to support the purchase of the additional
locomotives and has not determined whether any potential future requirements could
be met by maintaining the new locomotives at a better availability rate than it projects
(79 percent). Given these conditions, the need for all 70 new locomotives is
questionable. The difference in cost, including finance charges, between buying 56 and
70 locomotives is about $167 million.

Identifying Best Options to Meeting Needs. Amtrak stated in its FY 2012 Fleet Strategy
that it planned to replace its current fleet based on the assumption that age negatively
affects ridership and increases fleet maintenance costs. However, the corporation has
not demonstrated that replacing its current equipment with new equipment will
                                                                                                               4
                              Amtrak Office of Inspector General
              Asset Management: Integrating Sound Business Practices into its
                  Fleet Planning Process Could Save Amtrak Hundreds of
                      Millions of Dollars on Equipment Procurements
                          Report No. OIG-E-2013-014, May 28, 2013

increase revenue or reduce maintenance costs sufficient to outweigh the expense of
procuring new equipment.

For example, Amtrak is replacing all 15 of its HHP-8 electric locomotives that have
only been in service between 11 and 13 years,7 but has not conducted an analysis to
determine whether replacing the locomotives would be more cost-effective than
continuing to operate and maintain them. Similarly, Amtrak has not adequately
analyzed options to refurbish or repurpose existing equipment rather than buying new
equipment, or to incorporate more efficient equipment types into its fleet, such as
multi-level passenger cars.

Integrating Fleet Plans with Other Plans. Amtrak did not adequately integrate its fleet
acquisition plans with its strategic plans, most notably its financial plans, which is
inconsistent with sound business practices intended to ensure that funds are properly
budgeted and effectively used. Consequently, Amtrak is still planning for its future
equipment needs largely separate from the process it uses to formulate its annual
legislative and grant requests and its long-term financial plans. As a result, it is unclear
how Amtrak plans to fund future equipment acquisitions because the funding
requirements in the FY 2012 Fleet Strategy are inconsistent with the current 5-year
financial plan. Officials said that Amtrak intends to integrate fleet planning with
financial planning in 2014.

Amtrak’s financial plans also do not discuss the risks associated with its plans to repay
the loan using funds from the net operating surplus it expects to generate on the
Northeast Regional and Keystone services, where it will operate the equipment. Based
on Amtrak’s past financial performance on its Northeast Regional and Keystone
services, this surplus may be short of what is needed to cover both the cost of the
procurement and Amtrak’s increasing operating expenses. This could unexpectedly
result in Amtrak having to cut expenses or needing additional operating subsidies to
fund the procurement.




7According to projections in Amtrak’s FY 2012 Fleet Strategy, the average service life of a typical electric
locomotive is 25 years.
                                                                                       5
                           Amtrak Office of Inspector General
           Asset Management: Integrating Sound Business Practices into its
               Fleet Planning Process Could Save Amtrak Hundreds of
                   Millions of Dollars on Equipment Procurements
                       Report No. OIG-E-2013-014, May 28, 2013

New Developments. After we provided the corporation with our preliminary findings
for this evaluation, we were told that Amtrak’s Chief Executive Officer had tasked the
Chief of Corporate Research and Strategy with designing a new approach to fleet
planning that aligns with Amtrak’s corporate strategy and the changing intercity
passenger rail equipment environment. As part of this new approach, Amtrak expects
that the newly appointed business line managers in its Operations Department will
play a significant role in defining future service plans and recommending the types
and quantity of equipment required to meet those plans. This will include comparing
the costs of buying new equipment with the costs of operating existing equipment
before requests to buy new equipment will be approved. Amtrak officials also expect
that a new Chief of Operations Research will assist the business line managers in this
area and will likely be the eventual owner of the fleet planning process.

Additionally, we were told that a new fleet strategy that is starting to be developed
could be a significant departure from the FY 2012 Fleet Strategy. While we are
encouraged by these evolving developments, details on these plans have not yet been
defined; and policies, procedures, and processes have not yet been documented or
approved as of the date of this report. Consequently, we were not able to review them.

Recommendations. To assist management’s current efforts to improve the fleet
planning process, we are recommending that Amtrak’s President and Chief Executive
Officer implement the recommendations from our prior report to ensure that the
weaknesses in Amtrak’s fleet planning processes are addressed, prohibit future
equipment purchases until these weaknesses are addressed, review the ongoing
electric locomotive procurement to determine whether funds could be better spent
elsewhere, and consider asking Congress to suspend any requirements for an FY 2013
fleet strategy document for a year in order to address the recommendations in this
report.

Management Comments and OIG Analysis. Amtrak’s President and Chief Executive
Officer provided us with comments on a draft of this report on May 14, 2013, wherein
he generally concurred with all of our recommendations (see Appendix III). We
consider his comments responsive to our recommendations and we will follow up on
their implementation. We are also closing our recommendation for Amtrak to review
its procurement of its electric locomotives because Amtrak conducted the analysis we
requested. Although we believe that further analysis to justify the original
                                                                                                         6
                             Amtrak Office of Inspector General
             Asset Management: Integrating Sound Business Practices into its
                 Fleet Planning Process Could Save Amtrak Hundreds of
                     Millions of Dollars on Equipment Procurements
                         Report No. OIG-E-2013-014, May 28, 2013

procurement decision was warranted, we are encouraged by Amtrak’s commitment to
conduct more rigorous and comprehensive analysis to support future equipment
procurements. In addition, we made technical changes to the report where
appropriate, based on Amtrak’s comments.



AMTRAK HAS NOT ADEQUATELY ANALYZED ITS
EQUIPMENT NEEDS

Amtrak has not established a disciplined process to analyze its equipment needs in a
manner consistent with sound business practices although it agreed to do so in
response to our prior recommendations.

Amtrak projected its equipment acquisition requirements without having analyzed
route-specific ridership demand or having determined the optimal level of service for
each route based on Amtrak’s business strategies. Additionally, Amtrak did not
consider its plans to improve equipment availability in determining the amount of
equipment it needs. Amtrak’s ongoing procurement of electric locomotives illustrates
the risks that could arise when procuring equipment in this manner, as it appears that
Amtrak may have decided to buy more equipment than needed.



Equipment Needs Were Not Based on Full Analyses of Ridership
Demand and Equipment Availability

We previously recommended that Amtrak determine its equipment needs by
analyzing route-specific ridership demand and taking into consideration plans for
improving equipment reliability and availability.8 Our prior recommendations are
consistent with sound business practices developed by the Department of
Transportation’s Federal Transit Administration (FTA).9 These practices recommend


8For more information, see OIG E-11-2, March 31, 2011.
9FTA developed best practices for rail fleet management plans from the state and local rail operators
that it oversees. While the Federal Railroad Administration is the Department of Transportation agency
responsible for regulating Amtrak and overseeing its finances, it has not issued similar guidance for
                                                                                                      7
                             Amtrak Office of Inspector General
             Asset Management: Integrating Sound Business Practices into its
                 Fleet Planning Process Could Save Amtrak Hundreds of
                     Millions of Dollars on Equipment Procurements
                         Report No. OIG-E-2013-014, May 28, 2013

that rail operators develop fleet management plans and regularly analyze the amount
of equipment needed to cost-effectively address their ridership demand.

However, Amtrak did not analyze ridership demand to support projected equipment
needs in the FY 2012 Fleet Strategy. Amtrak officials agree that conducting route-
specific ridership demand analyses would improve the accuracy of Amtrak’s estimated
equipment needs. Amtrak established a working group in April 2012 to examine
ridership on the Northeast Corridor, but it has not established a deadline for
completing this analysis or one for its long-distance routes.

Amtrak’s prior decision to acquire 130 single-level cars for its long-distance service
illustrates what can happen without a thorough analysis of ridership demand. Part of
this $298 million procurement is for 50 additional passenger cars that Amtrak states
will provide more capacity to serve more passengers and therefore will improve the
corporation’s bottom line, consistent with its business strategy to improve its financial
performance. Yet Amtrak has not completed the route-specific demand and cost
analysis necessary to determine the expected financial impact.10 If Amtrak’s
assumption is incorrect and the new cars do not generate enough revenue to offset the
costs associated with operating and maintaining this additional new equipment,
Amtrak risks increasing its operating deficit.11

Additionally, Amtrak has not considered its plans to improve equipment availability
and reliability when determining its equipment needs. Although Amtrak has included
some information on projected availability rates in its FY 2012 Fleet Strategy and states
that new equipment will likely be more reliable than existing equipment, Amtrak has
not considered how these improvements will reduce equipment needs. In our previous
report,12 we estimated that Amtrak could reduce acquisition costs by over $500 million


passenger rail fleet management. We used FTA’s guidance to illustrate the need for enhanced processes
to define fleet needs.
10 This analysis is needed to determine whether adding more cars on routes that recover an average of 47

percent of their operating costs will improve Amtrak’s bottom line.
11 We recognize that there may be times when increased operating expenses could be in Amtrak’s overall

best interest, such as to improve service or minimize capital costs, but unexpected increases are
avoidable.
12 OIG-E-11-2, March 31, 2011.
                                                                                                    8
                             Amtrak Office of Inspector General
             Asset Management: Integrating Sound Business Practices into its
                 Fleet Planning Process Could Save Amtrak Hundreds of
                     Millions of Dollars on Equipment Procurements
                         Report No. OIG-E-2013-014, May 28, 2013

by considering availability improvements when estimating its equipment
requirements.

According to Amtrak officials, the corporation has begun to address some of these
issues in the process of planning for its procurement of the next generation of high-
speed rail trainsets. This includes analyzing potential ridership and revenue data to
determine the amount of equipment required to meet future demand. While we are
encouraged by these steps, Amtrak has not yet established a disciplined planning
process that ensures that this analysis is conducted for all of its future fleet
requirements.



Electric Locomotive Purchase Demonstrates the Risks of Not Fully
Analyzing Equipment Needs

Amtrak’s previous decision to procure electric locomotives illustrates the risks inherent
in procuring equipment without fully analyzing equipment needs. In 2010, Amtrak
finalized a $563-million loan agreement with the Federal Railroad Administration
(FRA) to procure 70 new electric locomotives to be delivered between 2013 and 2016.
These locomotives are intended to replace all 62 of the electric locomotives13 that
Amtrak currently operates. Little analysis was performed to support the number of
locomotives in this acquisition, such as analyzing the effects that improved availability
or increased ridership demand could have on the total number of locomotives needed.

To support the acquisition, Amtrak stated that its current locomotives are not very
reliable and that replacing them would improve both the reliability and availability of
its electric locomotive fleet. In addition, according to senior Amtrak officials, Amtrak
pursued the procurement of the 70 locomotives because the increased availability of
federal funding for rail improvement provided an opportunity to acquire new
equipment for the first time in more than a decade, and Amtrak was not assured that
similar funding would be available again in the future. The officials added that, at the
time, Amtrak contemplated using some of these locomotives for potential service


13Amtrak currently owns 66 electric locomotives, but four of these have been damaged and are currently
in storage or were scrapped, leaving 62 active electric locomotives in Amtrak’s fleet.
                                                                                                    9
                             Amtrak Office of Inspector General
             Asset Management: Integrating Sound Business Practices into its
                 Fleet Planning Process Could Save Amtrak Hundreds of
                     Millions of Dollars on Equipment Procurements
                         Report No. OIG-E-2013-014, May 28, 2013

expansion, including the potential electrification of service to Richmond, Virginia, and
Albany, New York, and expanded service on the Keystone routes in Pennsylvania.
However, Amtrak had not developed plans for any of these services at the time that it
signed the contract for the locomotives, nor has it progressed any further with plans
for additional services as of the date of this report.

According to Amtrak officials, Amtrak currently requires 44 electric locomotives to
meet its peak demand on the busiest days of the week. This includes three locomotives
designated as operational spares to be used in case of unexpected equipment
breakdowns and other contingencies. In addition, we estimate that Amtrak will need,
on average, 12 extra locomotives to cover those out of service for maintenance based on
the 79 percent availability rate that Amtrak projects for its electric locomotive fleet in
2016. Since Amtrak still has no firm plans to expand electric service, 56 locomotives,
rather than 70, is the number of locomotives needed to meet peak demand on a normal
day, based on the current level of service. Although Amtrak officials stated that they
need additional locomotives in order to address potential growth in service and to
account for other events such as wrecks, Amtrak has yet to conduct a detailed, risk-
based analysis to support the purchase of these additional locomotives. Moreover, the
corporation has not determined whether these potential future requirements could be
met by maintaining the new locomotives at an availability rate above 79 percent, as it
currently achieves with the majority of its other locomotives.

Therefore, Amtrak’s decision to buy 70 locomotives is questionable, given the lack of
analysis and the costs involved. We estimate that the difference in cost between 56 and
70 locomotives includes about $99 million for the 14 units and their associated spare
parts, plus $68 million in interest over the life of the loan, for a total of about $167
million.14 If, based on a more detailed analysis, Amtrak concludes that it needs fewer
than 70 new locomotives, it might have to renegotiate the contract with the
manufacturer to reduce the size of its order. Contract provisions requiring price


14We previously reported that Amtrak could need more locomotives because its current locomotive fleet
might not be powerful enough to pull the longer trains resulting from the additional cars Amtrak was
planning to buy to address the 2-percent annual growth in ridership it predicted in its FY 2010 Fleet
Strategy. However, given that Amtrak’s plans to buy additional cars have changed, our previous
comment appears to no longer be an issue.
                                                                                           10
                           Amtrak Office of Inspector General
           Asset Management: Integrating Sound Business Practices into its
               Fleet Planning Process Could Save Amtrak Hundreds of
                   Millions of Dollars on Equipment Procurements
                       Report No. OIG-E-2013-014, May 28, 2013

adjustments based on contract change orders could limit the cost savings achieved, but
Amtrak still might be able to avoid a significant portion of the costs associated with
any unneeded locomotives.



AMTRAK HAS NOT ANALYZED HOW BEST TO MEET ITS
NEEDS

Amtrak has not adequately examined how to cost-effectively meet its equipment
needs. While sound business practices recommend that rail operators attempt to
determine the most cost-effective ways to meet their equipment needs, Amtrak,
however, based its equipment replacement plans in its FY 2012 Fleet Strategy simply on
the age of its equipment alone, instead of analyzing whether procuring new equipment
might be more cost-effective than maintaining existing equipment. Amtrak also has not
fully explored refurbishing or repurposing existing equipment, or other options to
meet its needs.



Costs to Procure New Equipment Were Not Compared with Costs to
Maintain Existing Equipment

Amtrak states in its FY 2012 Fleet Strategy that its current fleet is in relatively good
condition, yet it plans to replace the fleet without examining whether continuing to
operate and maintain it is a cost-effective alternative to buying new equipment.

Sound business practices developed by FTA call for rail operators to use empirical
evidence to determine the service lives of equipment. But Amtrak has not gathered the
data or completed an analysis to demonstrate that replacing equipment when it
reaches the end of its predetermined service life is more cost-effective than continuing
to operate and maintain the equipment. Instead, Amtrak has decided to replace cars
when they reach a certain age, such as 30 years for passenger cars.

One reason Amtrak uses to justify replacing existing equipment is that customers
prefer newer equipment, and new equipment would allow it to generate more revenue
than it could generate with existing equipment. While we accept Amtrak’s premise
that passengers would generally prefer to ride in newer equipment, Amtrak has not
                                                                                                     11
                             Amtrak Office of Inspector General
             Asset Management: Integrating Sound Business Practices into its
                 Fleet Planning Process Could Save Amtrak Hundreds of
                     Millions of Dollars on Equipment Procurements
                         Report No. OIG-E-2013-014, May 28, 2013

supported its assumption with an analysis validating the amount of additional revenue
that the new equipment could generate. According to a senior Amtrak official, while
new equipment could lead to ridership increases for up to 3 years, the ridership levels
would likely level off or decline thereafter. The official also stated that it is difficult to
confirm the degree of ridership growth that would result since customers would have
to perceive a difference between new and old equipment. At the present time, Amtrak
does not ask its customers whether the age of equipment influences their decision to
ride Amtrak’s trains, making it difficult to assess whether, or how much, added
revenue Amtrak could generate by replacing its current equipment with new
equipment.

Amtrak also states that maintaining its existing equipment is becoming more expensive
as it ages. Although this seems reasonable, Amtrak has not determined how much its
costs are increasing as its equipment ages. For example, an Amtrak official said that
Amtrak has collected data on the costs of maintaining its fleet since 2004, but the
manner in which it has done so is not consistent enough to make accurate
comparisons. Further, Amtrak has not tracked these costs against the mileage of its
equipment, making it difficult to assess how equipment usage affects maintenance
requirements. In place of actual data, Amtrak’s hypothesis that the costs of maintaining
equipment will increase significantly over time is based on unvalidated assumptions
about a generic passenger car rather than actual equipment.15 If Amtrak does not
collect and use accurate lifecycle data, it may not have a reasonable basis to determine
whether buying new equipment is more cost-effective than maintaining what it has on
hand.16

Absent such an analysis, Amtrak risks prematurely replacing equipment and spending
more funds than necessary to meet its needs. For example, Amtrak is replacing 15 of its
62 existing electric locomotives, those designated as HHP-8s, as part of its new electric


15 These assumptions include, among others, a $3.5-million unit cost for new passenger cars, 3-percent
annual increases in revenue over 30 years due to the new equipment, and a generic 2-percent increase in
maintenance costs.
16 According to senior officials, Amtrak has recently started developing business cases to justify

equipment acquisitions as part of its effort to create bottom-up, data-driven decisions aligned with its
business strategy in order to improve its financial performance. We will be reporting on the adequacy of
Amtrak’s business cases later this year.
                                                                                                      12
                             Amtrak Office of Inspector General
             Asset Management: Integrating Sound Business Practices into its
                 Fleet Planning Process Could Save Amtrak Hundreds of
                     Millions of Dollars on Equipment Procurements
                         Report No. OIG-E-2013-014, May 28, 2013

locomotive procurement, although these locomotives have only been in service
between 11 and 13 years (about half of the 25-year service life that Amtrak projects for
electric locomotives in its Fleet Strategy) and Amtrak would still have to pay $55 million
through 2023 on the leases of these locomotives. As discussed above, Amtrak states
that it is replacing these locomotives because of their poor reliability.

The cost to replace these 15 locomotives, by our estimate, is about $179 million for the
locomotives and their associated spare parts, including finance charges, over the life of
the loan. 17 This is in addition to the remaining lease payments, which Amtrak will
have to make regardless of whether it uses the equipment or not. According to Amtrak
officials, Amtrak could also incur penalties of an additional $35 million if the
locomotives are not returned in good condition at the end of their leases.

Amtrak did not compare the cost of replacing the HHP-8s with the cost of improving
their reliability to levels that might allow Amtrak to keep them in service, before
deciding to replace them. In analyzing Amtrak’s plans to replace the HHP-8s with new
locomotives, we considered Amtrak’s maintenance practices for its Acela fleet, based
on a study we recently conducted.18 In that report, we compared the maintenance and
reliability of Amtrak’s Acela equipment with that of the rest of Amtrak’s equipment,
and found that the Acela equipment was more reliable than the conventional fleet. We
attributed the higher Acela reliability rates to the maintenance practices that Amtrak
has employed on its Acela fleet, and recommended that Amtrak examine opportunities
to implement similar practices, where feasible, across its conventional fleet.

According to Amtrak officials, these practices could be applied to the HHP-8s—since
they are similar to the Acela power cars—and could lead to improved reliability.
However, Amtrak officials also stated that it would be more efficient to maintain one
standard fleet of electric locomotives rather two separate fleets, although Amtrak has
not quantified the costs and benefits of maintaining a single fleet. According to a senior
official, Amtrak plans to conduct more rigorous analysis comparing costs and benefits
of buying new equipment versus maintaining old equipment when justifying future
equipment decisions.

 Our estimates are based on Amtrak’s loan agreement with FRA (numbers subject to rounding).
17

 Mechanical Maintenance: Improved Practices Have Significantly Enhanced Acela Equipment Performance and
18

Could Benefit Performance of Equipment Company-wide (OIG-E-2012-008, May 21, 2012).
                                                                                          13
                                Amtrak Office of Inspector General
                Asset Management: Integrating Sound Business Practices into its
                    Fleet Planning Process Could Save Amtrak Hundreds of
                        Millions of Dollars on Equipment Procurements
                            Report No. OIG-E-2013-014, May 28, 2013

Refurbishing or Repurposing Existing Equipment as an Alternative to
Buying New Were Not Considered

Amtrak has not yet adequately explored options to refurbish or repurpose its
equipment as a way to cost-effectively meet its needs. We previously recommended,19
and sound business practices developed by FTA suggest, that Amtrak examine the
feasibility of refurbishing existing cars and compare the lifecycle costs of these cars
with the lifecycle costs of new equipment. This could include replacing all major
components with new parts and modern technology, such as Wi-Fi and electrical
outlets at seats for portable devices, to ensure that the only “old” part of the car is the
stainless steel shell, which Amtrak acknowledges could last almost indefinitely.

Refurbishing equipment in this manner has enabled Amtrak to continue to cost-
effectively run some equipment that is over 50 years old, such as the passenger cars
that Amtrak operates jointly with the North Carolina Department of Transportation.
Similarly, Canada’s national passenger rail service recently employed this practice by
scheduling the refurbishment of 98 passenger coaches that are over 30 years old to
modernize their interiors, because the cost of doing so was reportedly significantly less
than the cost of buying new equipment.

Amtrak’s previous decision to purchase 130 single-level cars for its long-distance
service also illustrates what can happen without adequately assessing whether
refurbishing or repurposing existing equipment would be a cost-effective option to
buying new. Part of that purchase is for 80 cars that Amtrak considers too old to
continue to be used. According to Amtrak officials, they discussed the feasibility of
refurbishing the 80 old cars. However, they did not fully analyze this option—nor did
they analyze options to repurpose existing equipment, such as some of its single-level
Amfleet passenger cars—even though Amtrak has repurposed other passenger cars in
the past. Amtrak officials said that they plan to examine alternative options to buying
new equipment in support of Amtrak’s business strategy in the future.




19   OIG-E-11-2, March 31, 2011.
                                                                                                 14
                            Amtrak Office of Inspector General
            Asset Management: Integrating Sound Business Practices into its
                Fleet Planning Process Could Save Amtrak Hundreds of
                    Millions of Dollars on Equipment Procurements
                        Report No. OIG-E-2013-014, May 28, 2013

Options to Reduce Costs When Buying New Equipment Were Not
Adequately Examined

Other sound business practices for reducing fleet acquisition costs, developed by GAO,
include standardizing equipment and selecting more efficient equipment types, but
Amtrak has not adequately examined these options. For example, we previously
recommended that Amtrak consider increasing its use of multi-level cars wherever
practical and feasible because doing so could save between $174 million and $679
million if all single-level cars were replaced by multi-level cars.20 Amtrak agreed,
stating that the corporation would consider using multi-level cars in state-supported
service as long as the states agreed. Amtrak also agreed to analyze the feasibility of
increasing the use of multi-level cars on other routes, and report the results by
December 31, 2011.

Although Amtrak officials said that they had discussed the challenges in using multi-
level cars on the Northeast Corridor, such as height restrictions, luggage requirements,
and compliance with the Americans with Disabilities Act of 1990, as amended,21
Amtrak has yet to perform the analysis to specifically address our recommendation.
Amtrak officials state that they plan to conduct a more complete analysis at some point
in the future.



AMTRAK RISKS FUNDING SHORTFALLS DUE TO A LACK
OF INTEGRATED PLANNING
Amtrak has not integrated its fleet planning process with its other strategic and
financial plans, thereby increasing the risk that it might not use its limited capital
funding effectively and could require additional operating subsidies in the future.

Amtrak’s FY 2011–FY 2015 Strategic Plan provides a comprehensive roadmap for
Amtrak’s evolution into a corporation more focused on the bottom line. As we recently


20 The savings are dependent on the amount of luggage space Amtrak could provide per passenger. For
more information, see OIG-E-11-2, March 31, 2011.
21 Public Law 110-325.
                                                                                                             15
                              Amtrak Office of Inspector General
              Asset Management: Integrating Sound Business Practices into its
                  Fleet Planning Process Could Save Amtrak Hundreds of
                      Millions of Dollars on Equipment Procurements
                          Report No. OIG-E-2013-014, May 28, 2013

testified,22 one key to improving the efficiency and effectiveness of Amtrak’s operations
and service is sustaining and effectively implementing its ongoing strategic initiatives
over the long term. Although Amtrak officials said that the corporation’s fleet planning
will eventually be integrated with its financial planning, as of the date of this report,
this had not occurred.

As we previously recommended, and in accordance with sound business practices
developed by FTA, the funding needed to implement rail operators’ equipment
acquisition plans should be properly integrated with the operators’ overall financial
planning to ensure that funding is available when needed and is used for the most
effective purposes. In addition, both PRIIA and Amtrak’s FY 2012 appropriation
required that Amtrak include its fleet funding requirements in its financial plans.
However, Amtrak is still planning equipment needs largely separate from the
processes used to formulate its annual legislative and grant requests and 5-year
financial plans.

As a result, it is unclear how Amtrak plans to fund future equipment acquisitions. The
FY 2012 Fleet Strategy details $2.7 billion in equipment acquisition costs for ongoing
and planned procurements from FY 2012 through FY 2016, yet the 5-year plan only
details $1.4 billion in estimated equipment acquisition costs over the same period. By
not fully identifying its funding needs in its 5-year plan, Amtrak is not consistently
communicating its needs to Congress. Further, by not integrating the costs of ongoing
and planned acquisitions into the capital planning process, Amtrak may not have a
reasonable basis upon which to assess and prioritize its fleet needs with its other needs,
such as the $5.2-billion infrastructure maintenance backlog on the Northeast Corridor.

Amtrak’s financial plans also do not discuss the risks associated with relying on
additional revenue to fund its current electric locomotive procurement. As mentioned,
Amtrak is borrowing $563 million from FRA to pay for 70 new electric locomotives. Its
debt payments on this loan will average about $38 million per year for 24 years, from
FY 2016 through FY 2039. Amtrak plans to repay the loan using funds from the net
operating surplus it expects to generate on the Northeast Regional and Keystone


22Amtrak Improvement Initiatives: Sustained Attention and Effective Implementation Keys to Success (OIG-T-
2013-001, November 28, 2012).
                                                                                        16
                           Amtrak Office of Inspector General
           Asset Management: Integrating Sound Business Practices into its
               Fleet Planning Process Could Save Amtrak Hundreds of
                   Millions of Dollars on Equipment Procurements
                       Report No. OIG-E-2013-014, May 28, 2013

services. Although Amtrak’s operating revenue from its Northeast Regional and
Keystone services has increased on average by $25 million per year over the last 5
years, these funds have been largely budgeted to cover Amtrak’s increasing operating
expenses.

Therefore, it seems unlikely that Amtrak will generate sufficient additional future
revenue to cover both increasing operating expenses and the loan payments for this
locomotive procurement. This could unexpectedly result in having to cut operating
expenses in other areas or requesting greater operating subsidies to fund the
locomotive loan payments. Although the procurement was discussed in Amtrak’s FY
2012–2016 Five-Year Financial Plan, the risk of needing additional operating subsidies
was not reflected in the plan and does not appear to have been considered.



CONCLUSIONS

Amtrak has yet to implement the recommendations from our prior report, and its fleet
planning process is inconsistent with the sound business practices we have identified
here. Additionally, the corporation does not have a history of applying analytical rigor
to making cost-effective fleet planning decisions. These weaknesses greatly increase the
risk that Amtrak’s ongoing and planned acquisitions could exacerbate its operating
deficit and negatively affect operations, particularly if the acquisitions are not properly
integrated into overall financial planning. Therefore, if Amtrak does not improve its
fleet planning process, it risks spending hundreds of millions of dollars more than
necessary, and potentially needing additional operating subsidies.

We recognize that Amtrak is working to improve its fleet planning process. Successful
implementation of an enhanced process will require the inclusion of the sound
business practices described in this report, and is necessary given the amount of funds
involved.
                                                                                      17
                           Amtrak Office of Inspector General
           Asset Management: Integrating Sound Business Practices into its
               Fleet Planning Process Could Save Amtrak Hundreds of
                   Millions of Dollars on Equipment Procurements
                       Report No. OIG-E-2013-014, May 28, 2013

RECOMMENDATIONS
To assist management’s current efforts to improve Amtrak’s fleet planning process, we
recommend that Amtrak’s President and Chief Executive Officer:

1. Ensure that the recommendations from our previous report, listed in Appendix II
   and which were designed to improve Amtrak’s management of its fleet planning
   process, are implemented.

2. Prohibit Amtrak from making additional equipment acquisitions until the need for
   the equipment has been fully analyzed, the acquisitions have been shown to be the
   most cost-effective option available to satisfy the need, and funding for the
   acquisitions has been identified through an integrated planning process that
   supports Amtrak’s business strategy.

3. Ensure that a review of the procurement of the 70 electric locomotives is conducted
   to determine whether funds could be put to better use by reducing the number of
   locomotives to be purchased or by continuing to operate and maintain existing
   HHP-8 locomotives.

4. Consider asking Congress to suspend any requirements for an FY 2013 fleet
   strategy document for a year, in order to address the issues we describe in this
   report.



MANAGEMENT COMMENTS AND OIG ANALYSIS

Amtrak’s President and Chief Executive Office provided comments on a draft of this
report on May 14, 2013, wherein he generally concurred with all of our
recommendations (see Appendix III). We are encouraged by Amtrak’s commitment to
improve its fleet planning process in the future by incorporating the sound business
practices identified in our report. We also acknowledge the challenges management
faces in making these improvements, while concurrently reorganizing Amtrak’s
structure and focusing on improving its overall financial performance. We consider his
comments responsive to our recommendations and we will follow up on their
implementation.
                                                                                       18
                           Amtrak Office of Inspector General
           Asset Management: Integrating Sound Business Practices into its
               Fleet Planning Process Could Save Amtrak Hundreds of
                   Millions of Dollars on Equipment Procurements
                       Report No. OIG-E-2013-014, May 28, 2013

In addition, we are closing our recommendation for Amtrak to review its procurement
of the 70 electric locomotives based on its response to this report. Amtrak reviewed the
procurement as we recommended and determined that it was in Amtrak’s best interest
to proceed with the current acquisition of all 70 locomotives. Although we believe that
further analysis to justify the original procurement decision was warranted, we are
encouraged by Amtrak’s commitment to conduct more rigorous and comprehensive
analysis to support future equipment procurements.

We also made technical changes to the report, where appropriate, based on Amtrak’s
comments. In particular, Amtrak now states that the assertion in its recent Five-Year
Financial Plan that it was planning to repay its loan for the locomotives with additional
revenue gained from operating more reliable locomotives was incorrect. Instead,
Amtrak plans to rely on funds from the net operating surplus from the Northeast
Corridor to repay the loan. We removed the incorrect information and subsequent
discussion around the revenue generated from operating more reliable equipment
from the report. However, our initial finding that Amtrak may not be able to repay the
loan without reducing expenses in other areas, or requesting greater operating
subsidies, remains valid.

We appreciate the courtesies and cooperation that Amtrak representatives extended to
us during the course of this review. If you have any questions, please contact me
(Ted.Alves@amtrakoig.com, 202.906.4600) or Cal Evans, Assistant Inspector General for
Inspections and Evaluations (Calvin.Evans@amtrakoig.gov, 202.906.4507).


cc:   Donald J. Stadtler, Jr., Vice President, Operations
      Mark Yachmetz, Chief, Corporate Research & Strategy
      Dan M. Black, Acting Chief Financial Officer
      Matthew F. Hardison, Chief Marketing and Sales
      Mario Bergeron, Chief Mechanical Officer
      Charles S. Farmer III, Assistant Vice President, Financial Planning
      John J. Martin, Chief Logistics Officer
      Scott D. Riley, Principal Officer, Strategic Fleet Planning
      Matthew Gagnon, Senior Director, Business Processes and Management
              Controls
      Melantha Page, Senior Audit Liaison
                                                                                        19
                           Amtrak Office of Inspector General
           Asset Management: Integrating Sound Business Practices into its
               Fleet Planning Process Could Save Amtrak Hundreds of
                   Millions of Dollars on Equipment Procurements
                       Report No. OIG-E-2013-014, May 28, 2013

                                      Appendix I

                      SCOPE AND METHODOLOGY

This report provides the results of our evaluation of Amtrak’s fleet planning process.
We initiated this evaluation to determine whether Amtrak based its FY 2012 Fleet
Strategy on detailed analyses and integrated planning in line with our previous
recommendations that were designed to improve the fleet planning process and
minimize Amtrak’s risk of spending funds on unnecessary acquisitions. Upon
reviewing the FY 2012 Fleet Strategy, we found that Amtrak had not yet addressed our
recommendations or significantly changed its fleet strategy from the one it published
in 2010. Therefore, we expanded the scope of this evaluation to review Amtrak’s entire
fleet planning process. Our objectives for this report are to describe the practices and
plan that were in place during the course of our review and the extent to which
Amtrak’s fleet planning process had (1) adequately determined the corporation’s
equipment needs, (2) determined a cost-effective approach to meeting equipment
needs, and (3) integrated its equipment acquisition plans with its financial plans. We
performed our work from May through April 2013 in Washington, DC, and
Wilmington, DE.

To evaluate the extent to which Amtrak has determined what equipment it needs, we
obtained and analyzed Amtrak’s FY 2012 Fleet Strategy and supporting documentation
detailing Amtrak’s equipment needs. We also interviewed officials from Amtrak’s
Finance, Marketing, Mechanical, and Procurement Services departments and reviewed
policies, procedures, and guidance to gain an understanding of ongoing changes
Amtrak plans to make in its process to determine equipment needs. Further, we
reviewed guidance established and recommended by the Federal Transit
Administration and Government Accountability Office relevant to rail fleet
management to assess the extent to which Amtrak’s fleet planning process is consistent
with sound business practices.

To determine the extent to which Amtrak has reviewed cost-effective options to
meeting its equipment needs, we examined documents for its ongoing equipment
acquisitions and analyzed cost estimates for future acquisitions detailed in Amtrak’s
FY 2012 Fleet Strategy. We obtained and reviewed meeting minutes from Amtrak’s
Fleet Strategy Executive Steering Committee and the committee’s decommissioning
                                                                                       20
                           Amtrak Office of Inspector General
           Asset Management: Integrating Sound Business Practices into its
               Fleet Planning Process Could Save Amtrak Hundreds of
                   Millions of Dollars on Equipment Procurements
                       Report No. OIG-E-2013-014, May 28, 2013

work group, and discussed its ongoing work with members of Amtrak’s Finance and
Mechanical departments. We also interviewed officials from Amtrak’s Finance,
Marketing, Mechanical, and Information Technology departments to obtain an
understanding of the corporation’s maintenance and acquisitions (lifecycle) costs. We
interviewed the Amtrak-hired consultant who compiled the FY 2010 and FY 2011 Fleet
Strategy documents and examined Amtrak’s lifecycle cost model to determine factors
that may affect equipment replacement periods.

To determine the extent to which Amtrak has integrated its fleet planning process with
funding for other priorities, we analyzed its FY 2012 Fleet Strategy and its FY 2012–2016
Five-Year Financial Plan. We also obtained and analyzed documents on Amtrak’s
ongoing acquisitions and associated policies and procedures, and discussed this
information and Amtrak’s funding sources with officials in Amtrak’s Finance
Department. We reviewed the risks associated with not integrating equipment
acquisitions with Amtrak’s overall financial plans and discussed these risks with
Amtrak officials.

We performed this evaluation in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the evaluation
to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings
and conclusions based on our objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our objectives.

Internal Controls

In conducting the evaluation, we reviewed Amtrak’s fleet planning project
management controls within the context of our objectives. We also examined other
Amtrak controls associated with estimating, budgeting, and funding capital
construction projects. We determined that deficiencies in internal controls existed due
to Amtrak’s limited progress in implementing sufficient fleet planning processes and
enterprise risk management controls, in line with our prior recommendations and the
sound business practices we identified. We present the results of our review in the
body of this report.
                                                                                           21
                           Amtrak Office of Inspector General
           Asset Management: Integrating Sound Business Practices into its
               Fleet Planning Process Could Save Amtrak Hundreds of
                   Millions of Dollars on Equipment Procurements
                       Report No. OIG-E-2013-014, May 28, 2013

Use of Computer-Processed Data

We used computer-processed data to support our findings in this report. We
specifically examined Amtrak’s maintenance data and lifecycle cost data to determine
the extent to which Amtrak has examined equipment lifecycle costs. We did not review
the overall reliability of these systems, but did interview Amtrak officials to obtain a
general understanding of how the data are collected and the extent to which Amtrak
incorporated the data into its fleet planning process. We determined that the data were
sufficiently reliable for the purposes of our objectives.

Prior Reports

We relied on the following Amtrak OIG and U.S. Government Accountability Office
(GAO) reports and testimony in conducting our evaluation:

Amtrak Improvement Initiatives: Sustained Attention and Effective Implementation Keys to
Success (OIG-T-2013-001, November 28, 2012)

Mechanical Maintenance: Improved Practices Have Significantly Enhanced Acela Equipment
Performance and Could Benefit Performance of Equipment Company-wide (OIG-E-2012-008,
May 21, 2012)

Amtrak Corporate Governance: Implementing a Risk Management Framework is Essential to
Achieving Amtrak’s Strategic Goals (OIG-A-2012-007, March 30, 2012)

Evaluation of Amtrak’s FY 2010 Fleet Strategy: A Commendable High-Level Plan That Needs
Deeper Analysis and Planning Integration (OIG-E-11-2, March 31, 2011)

Transit Rail: Potential Rail Car Cost-Saving Strategies Exist, U.S. Government
Accountability Office (GAO-10-730, June 30, 2010)

Financial Impact of Equipment Delays (OIG-E-09-02, March 25, 2009)

GAO Cost Estimating and Assessment Guide: Best Practices for Developing and Managing
Capital Program Costs, U.S. Government Accountability Office (GAO-09-3SP, March 2,
2009)
                                                                                         22
                                Amtrak Office of Inspector General
                Asset Management: Integrating Sound Business Practices into its
                    Fleet Planning Process Could Save Amtrak Hundreds of
                        Millions of Dollars on Equipment Procurements
                            Report No. OIG-E-2013-014, May 28, 2013

                                                 Appendix II

        PRIOR RECOMMENDATIONS TO IMPROVE AMTRAK’S
                  FLEET PLANNING PROCESS


The following seven recommendations were made to Amtrak’s President and Chief
Executive Officer in our March 31, 2011, report Evaluation of Amtrak’s FY 2010 Fleet
Strategy: A Commendable High-Level Plan That Needs Deeper Analysis and Planning
Integration (OIG-E-11-2):

1. Rolling Stock Requirements. Ensure that future strategy updates include a more
   detailed process to determine future rolling stock requirements. Specifically, this
   would include
           route-specific ridership demand forecasts incorporating service extensions and
           new services, in addition to existing service;
           the identification of external factors that significantly influence ridership
           demand, sensitivity analyses to measure their impact, and alternative strategies
           to accommodate potential changes in demand;
           equipment-type-specific load factors (for example, sleeper v. coach cars);
           the consideration of possible consist23 alternatives and changes in train
           frequency; and
           an analysis of the locomotive requirements needed to support future car fleet
           requirements.

2. Multi-level Passenger Cars. Ensure that future strategy updates consider
   increasing the use of multi-level passenger coaches wherever practical and feasible.

3. Equipment Availability. Ensure that future strategy updates consider Amtrak’s
   planned equipment availability and reliability improvements and incorporate their
   impact into equipment estimates. Also ensure that future strategy updates
   incorporate the impact of any additional equipment availability improvements.



23   Consist refers to the number of locomotives and cars in a train.
                                                                                      23
                           Amtrak Office of Inspector General
           Asset Management: Integrating Sound Business Practices into its
               Fleet Planning Process Could Save Amtrak Hundreds of
                   Millions of Dollars on Equipment Procurements
                       Report No. OIG-E-2013-014, May 28, 2013

4. Economic Useful Life of Amtrak’s Rolling Stock. Ensure that future strategy
   updates are based on an economic evaluation model that uses strategic, operational,
   and financial factors (including replacement costs, operating expenses, overhaul
   and upgrading expenses, maintenance expenses, and revenue/ridership impact of
   each relevant equipment alternative) to determine the optimal retirement age for
   Amtrak’s rolling stock.

5. Fleet Plan for Acela Express. Ensure that future strategy updates include the
   results of an Acela Express replacement and expansion plan that is linked to a clear
   strategic focus for the service and considers alternatives in the context of strategic
   goals, forecast demand and revenue scenarios, cost performance, and other relevant
   factors.

6. Rolling Stock Acquisition Approach. Ensure that future strategy updates clearly
   demonstrate how Amtrak’s procurement approach results in the most cost-effective
   use of its funds while advancing support for a competitive supplier base.

7. Integration of Systematic Fleet Planning Process into Amtrak’s Overall Strategy.
   Ensure that future updates of the fleet strategy are based on a more systematic and
   iterative planning process, one that is integrated with Amtrak’s overall strategy and
   linked to other strategic plans and activities. This should include a financial
   assessment to identify the most economical solution for Amtrak and the taxpayer.
                                                                  24
                Amtrak Office of Inspector General
Asset Management: Integrating Sound Business Practices into its
    Fleet Planning Process Could Save Amtrak Hundreds of
        Millions of Dollars on Equipment Procurements
            Report No. OIG-E-2013-014, May 28, 2013

                         Appendix III
      COMMENTS FROM AMTRAK'S
PRESIDENT AND CHIEF EXECUTIVE OFFICER
                                                                  25
                Amtrak Office of Inspector General
Asset Management: Integrating Sound Business Practices into its
    Fleet Planning Process Could Save Amtrak Hundreds of
        Millions of Dollars on Equipment Procurements
            Report No. OIG-E-2013-014, May 28, 2013
                                                                  26
                Amtrak Office of Inspector General
Asset Management: Integrating Sound Business Practices into its
    Fleet Planning Process Could Save Amtrak Hundreds of
        Millions of Dollars on Equipment Procurements
            Report No. OIG-E-2013-014, May 28, 2013
                                                                  27
                Amtrak Office of Inspector General
Asset Management: Integrating Sound Business Practices into its
    Fleet Planning Process Could Save Amtrak Hundreds of
        Millions of Dollars on Equipment Procurements
            Report No. OIG-E-2013-014, May 28, 2013
                                                                  28
                Amtrak Office of Inspector General
Asset Management: Integrating Sound Business Practices into its
    Fleet Planning Process Could Save Amtrak Hundreds of
        Millions of Dollars on Equipment Procurements
            Report No. OIG-E-2013-014, May 28, 2013
                                                                  29
                Amtrak Office of Inspector General
Asset Management: Integrating Sound Business Practices into its
    Fleet Planning Process Could Save Amtrak Hundreds of
        Millions of Dollars on Equipment Procurements
            Report No. OIG-E-2013-014, May 28, 2013
                                                                  30
                Amtrak Office of Inspector General
Asset Management: Integrating Sound Business Practices into its
    Fleet Planning Process Could Save Amtrak Hundreds of
        Millions of Dollars on Equipment Procurements
            Report No. OIG-E-2013-014, May 28, 2013
                                                                  31
                Amtrak Office of Inspector General
Asset Management: Integrating Sound Business Practices into its
    Fleet Planning Process Could Save Amtrak Hundreds of
        Millions of Dollars on Equipment Procurements
            Report No. OIG-E-2013-014, May 28, 2013
                                                                  32
                Amtrak Office of Inspector General
Asset Management: Integrating Sound Business Practices into its
    Fleet Planning Process Could Save Amtrak Hundreds of
        Millions of Dollars on Equipment Procurements
            Report No. OIG-E-2013-014, May 28, 2013
                                                                  33
                Amtrak Office of Inspector General
Asset Management: Integrating Sound Business Practices into its
    Fleet Planning Process Could Save Amtrak Hundreds of
        Millions of Dollars on Equipment Procurements
            Report No. OIG-E-2013-014, May 28, 2013
                                                                  34
                Amtrak Office of Inspector General
Asset Management: Integrating Sound Business Practices into its
    Fleet Planning Process Could Save Amtrak Hundreds of
        Millions of Dollars on Equipment Procurements
            Report No. OIG-E-2013-014, May 28, 2013
                                                                  35
                Amtrak Office of Inspector General
Asset Management: Integrating Sound Business Practices into its
    Fleet Planning Process Could Save Amtrak Hundreds of
        Millions of Dollars on Equipment Procurements
            Report No. OIG-E-2013-014, May 28, 2013
                                                                  36
                Amtrak Office of Inspector General
Asset Management: Integrating Sound Business Practices into its
    Fleet Planning Process Could Save Amtrak Hundreds of
        Millions of Dollars on Equipment Procurements
            Report No. OIG-E-2013-014, May 28, 2013
                                                                  37
                Amtrak Office of Inspector General
Asset Management: Integrating Sound Business Practices into its
    Fleet Planning Process Could Save Amtrak Hundreds of
        Millions of Dollars on Equipment Procurements
            Report No. OIG-E-2013-014, May 28, 2013
                                                                  38
                Amtrak Office of Inspector General
Asset Management: Integrating Sound Business Practices into its
    Fleet Planning Process Could Save Amtrak Hundreds of
        Millions of Dollars on Equipment Procurements
            Report No. OIG-E-2013-014, May 28, 2013
                                                                  39
                Amtrak Office of Inspector General
Asset Management: Integrating Sound Business Practices into its
    Fleet Planning Process Could Save Amtrak Hundreds of
        Millions of Dollars on Equipment Procurements
            Report No. OIG-E-2013-014, May 28, 2013
                                                                          40
                        Amtrak Office of Inspector General
        Asset Management: Integrating Sound Business Practices into its
            Fleet Planning Process Could Save Amtrak Hundreds of
                Millions of Dollars on Equipment Procurements
                    Report No. OIG-E-2013-014, May 28, 2013

                                 Appendix IV

                           ABBREVIATIONS

FRA       Federal Railroad Administration
FTA       Federal Transit Administration
FY        fiscal year
GAO       U.S. Government Accountability Office
OIG       Office of Inspector General
PRIIA     Passenger Rail Investment and Improvement Act of 2008
                                                                             41
                           Amtrak Office of Inspector General
           Asset Management: Integrating Sound Business Practices into its
               Fleet Planning Process Could Save Amtrak Hundreds of
                   Millions of Dollars on Equipment Procurements
                       Report No. OIG-E-2013-014, May 28, 2013

                                    Appendix V

                           OIG TEAM MEMBERS

Calvin Evans, Assistant Inspector General, Inspections and Evaluations

Jason Venner, Senior Director, Inspections and Evaluations

Joshua Moses, Evaluator

Robert Dyer, Principal Operations Analyst
                                                                                   42
                          Amtrak Office of Inspector General
          Asset Management: Integrating Sound Business Practices into its
              Fleet Planning Process Could Save Amtrak Hundreds of
                  Millions of Dollars on Equipment Procurements
                      Report No. OIG-E-2013-014, May 28, 2013


           OIG MISSION AND CONTACT INFORMATION
Amtrak OIG’s Mission         The Amtrak OIG’s mission is to provide independent,
                             objective oversight of Amtrak’s programs and operations
                             through audits, inspections, evaluations, and
                             investigations focused on recommending improvements
                             to Amtrak’s economy, efficiency, and effectiveness;
                             preventing and detecting fraud, waste, and abuse; and
                             providing Congress, Amtrak management, and Amtrak’s
                             Board of Directors with timely information about
                             problems and deficiencies relating to Amtrak’s programs
                             and operations.

Obtaining Copies of OIG Available at our website: www.amtrakoig.gov.
Reports and Testimony

To Report Fraud, Waste, Report suspicious or illegal activities to the OIG Hotline
and Abuse               (you can remain anonymous):

                             Web:      www.amtrakoig.gov/hotline
                             Phone:    (800) 468-5469

Congressional and            Calvin E. Evans
Public Affairs               Assistant Inspector General, Inspections and Evaluations
                             Mail:     Amtrak OIG
                                       10 G Street, N.E., 3W-300
                                       Washington, DC 20002
                             Phone:    (202) 906-4507
                             E-mail:   calvin.evans@amtrakoig.gov
